           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      ADMINISTRATIVE COSTS
    CLAIMED BY THE MISSISSIPPI
    DISABILITY DETERMINATION
             SERVICES

    May 2007       A-08-06-16125




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 18, 2007                                                          Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Administrative Costs Claimed by the Mississippi Disability Determination Services
           (A-08-06-16125)


           OBJECTIVE
           Our objectives were to (1) evaluate the Mississippi Disability Determination Services’
           (MS-DDS) internal controls over the accounting and reporting of administrative costs,
           (2) determine whether costs claimed for Federal Fiscal Years (FFY) 2004 and 2005
           were allowable and properly allocated and funds were properly drawn, and (3) assess
           limited areas of the general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
           to the Code of Federal Regulations (C.F.R.). 1 Each DDS is responsible for determining
           claimants’ disabilities and ensuring adequate evidence is available to support its
           determinations. 2

           To make proper disability determinations, each State agency is authorized to purchase
           consultative examinations (CE) and medical evidence of record from the claimants’
           physicians or other treating sources. 3 SSA reimburses the State agency for
           100 percent of allowable expenditures. The DDSs report program disbursements and
           unliquidated obligations on Form SSA-4513, State Agency Report of Obligations for


           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
           2
               Id.
           3
               SSA, Program Operations Manual System (POMS), DI 39545.001.B.4.
Page 2 – Paul D. Barnes

SSA Disability Program. 4 The DDS withdraws Federal funds through the Department of
the Treasury’s Automated Standard Application for Payments system to pay for
program expenditures. MS-DDS is a component of the Mississippi Department of
Rehabilitation Services (MDRS). For additional background, scope and methodology,
see Appendix B.

RESULTS OF REVIEW
MS-DDS’ controls over the accounting and reporting of administrative costs for
FFYs 2004 and 2005 were generally effective to ensure costs claimed were allowable
and properly allocated and funds were properly drawn. However, MS-DDS reimbursed
medical providers for certain procedures using payment rates that exceeded the
maximum rates paid by Federal or other agencies in the State for the same or similar
types of service. The excess CE payments totaled $25,812.

In addition, MDRS incorrectly charged $1,869 for “use allowances” 5 on equipment that
was no longer in service. Furthermore, we determined MDRS’ Cost Allocation Plan
(CAP) was outdated and not always followed.

Finally, our limited review of MS-DDS’ security controls environment indicated controls
were generally adequate. However, we identified some areas where MS-DDS’ controls
did not protect claimant data and office facilities.

CE COSTS

Federal regulations require that each State determine the payment rates for medical or
other services necessary to make disability determinations. States are responsible for
monitoring and overseeing payment rates for medical and other services to ensure the
rates do not exceed the highest rate paid by Federal or other agencies in the State. 6
However, we determined that MS-DDS reimbursed medical providers at rates that
exceeded the maximum rates allowed under Federal regulations.

MS-DDS provided us a list of the codes it used for its CE rates and a crosswalk with the
American Medical Association’s Current Procedural Terminology coding system. We
compared the rates MS-DDS paid for its x-rays, laboratory tests, and other medical
services with the rates paid by Medicare and Mississippi's Worker's Compensation
Commission. 7 Our comparison showed that, for 16 procedures, MS-DDS used payment

4
 POMS, DI 39506.200(B)(4), The Reporting Process – Recording and Reporting Obligations, states
“Unliquidated obligations represent obligations for which payment has not yet been made. Unpaid
obligations are considered unliquidated whether or not the goods or services have been received.”
5
    Like depreciation, use allowances are a means of allocating costs over the length of an asset’s use.
6
    20 C.F.R. §§ 404.1624 and 416.1024; 20 C.F.R. §§ 404.1519k(c) and 416.919k(c).
7
 In evaluating the reasonableness of MS-DDS’ rates, we used the highest fee paid by either Medicare or
Worker's Compensation.
Page 3 – Paul D. Barnes


rates that exceeded the highest rates allowed under these programs. Based on our
calculations, we believe MS-DDS spent $25,812 during our audit period on excessive
CE fees (see Appendix C). During our audit field work, MS-DDS did not provide
justification for using CE payment rates that exceeded the maximum rates paid by
Federal or other agencies in the State or evidence that SSA approved these higher
rates.

UNALLOWABLE EQUIPMENT USE ALLOWANCES

Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local
and Indian Tribal Governments, prohibits charges for use allowances on equipment
items that are no longer in service. 8 However, MDRS included use allowances in its
Support Services indirect cost pool for 15 computers, 2 desks, 1 credenza, and 1 laser
printer even though the Agency had disposed of the equipment. MDRS officials told us
that, contrary to OMB guidance, the Agency generally charges use allowances for
equipment until it recovers the cost of the item—even after the item’s disposal.

Using the equipment disposition date for each item, we determined the number of
quarters during the audit period for which MDRS erroneously included a use allowance
in the indirect cost pool. We determined that use allowances on these items after their
disposition totaled $6,128 ($2,076 for FFY 2004 and $4,052 for FFY 2005). Based on
an average indirect cost pool rate of 30.5 percent (the DDS program’s share of the cost
pool), we believe MDRS overcharged the DDS program $1,869.

MDRS’ INDIRECT CAP OUTDATED AND NOT ALWAYS FOLLOWED

MDRS’ existing CAP was last approved by the Department of Education (DoE) in
June 1995. We believe the CAP should be revised because it is outdated and does not
reflect current operations. Among other things, the organizational charts, budget
information and position descriptions contained in the CAP are no longer accurate.
Additionally, MDRS did not always comply with provisions established by the CAP. For
example, it did not always charge SSA for indirect personnel costs using the
methodology outlined in the approved agreement. As such, we believe MDRS should
prepare and submit an updated CAP to DoE. Additionally, we believe SSA should
determine whether indirect personnel costs charged to the Agency using methods not
provided for in the CAP were appropriate.

CAP Outdated

DoE approved MDRS’ existing CAP in June 1995. Since that time, MDRS’
organizational structure has changed, and some of the position descriptions in the CAP
have been modified or are no longer relevant. Additionally, budget information in the
CAP is from August 1994, which provides a significantly outdated picture of MDRS’ and
MS-DDS’ financial requirements.


8
    Attachment B, section 11.h. (revised May 1, 2004).
Page 4 – Paul D. Barnes


Some examples of the discrepancies between the CAP and current operations include
the following.

•   MDRS provides services through an Office of Special Disability Programs, which is
    not shown in the CAP organizational chart.

•   The CAP contains position descriptions for a (1) Director, Office of Strategic
    Planning, and (2) Property Officer Trainee. These positions were not filled during
    our audit period. However, the duties of these positions appeared to have been
    absorbed by other positions.

•   Some positions that appeared administrative in nature were not included in the CAP.
    For example, the CAP allows for one “Switchboard Operator Supervisor.” The
    indirect personnel costs for this position are allocated between MDRS’ programs
    through the Support Services indirect cost pool. However, a second switchboard
    operator who appeared to perform the same duties was not included in the CAP,
    and the personnel costs for this position were distributed among the three programs
    using a methodology not provided for in the agreement.

In a June 20, 1995 letter approving MDRS’ CAP, DoE stated “ . . . in accordance [sic]
OMB Circular A-87 and Subpart E of 45 CFR 95, this approval is continuous until the
allocation methods shown in the CAP need revision because of organizational changes
within your department, legislative or regulatory changes, or a new CAP is submitted by
you . . . Amendments to your CAP would be required for any changes indicated above.
The sole responsibility for submitting proposed revisions rests with MDRS. . . . ”

In accordance with this guidance, we believe MDRS should submit a revised CAP,
which better reflects current operations, to the cognizant Federal agency, DoE, for
consideration, negotiation and approval.

CAP Not Always Followed

During our audit period, MDRS distributed over 20 employees’ personnel costs to SSA
using various allocation methods (for example, space utilization percentages, the
number of purchase orders prepared and the number of payment vouchers processed)
that were not provided for in the CAP. Additionally, MDRS did not request an
amendment to the CAP before using these alternate allocation methods.

MDRS’ CAP describes 34 positions that are designed to be filled with employees who
provide services to 3 MDRS programs, including MS-DDS. The CAP specifies that, for
these administrative positions, costs will be allocated “based on a proportion of salaries
and fringe benefits charged to each Office when compared to the total salaries and
fringe benefits.” During our audit period, the proportion of these costs charged to
MS-DDS, and ultimately SSA, averaged about 30 percent. However, because the CAP
was outdated, some positions that were administrative in nature and provided services
to other MDRS programs were not included in these 34 position descriptions. As such,
Page 5 – Paul D. Barnes


MDRS used other methods it believed appropriate to allocate their costs. Additionally,
in one instance, although a position was specified in the CAP, MDRS elected an
alternate method to allocate its costs.

For example, MDRS decided to use space-utilization percentages developed
approximately 10 years ago for its main office building to distribute the personnel costs
of several Office of Administrative Services’ staff members. Using this methodology,
MDRS billed almost 60 percent of these employee’s personnel costs to MS-DDS—
rather than the approximately 30 percent allowed by the CAP. Included among these
staff members were (1) MDRS’ Physical Plant Director, (2) a Branch Director who
served as a Property Officer, (3) a switchboard operator, and (4) two individuals who
operated its office supply warehouse. The CAP indicates that the Physical Plant
Director’s personnel costs would be distributed through the Support Services indirect
cost pool. The Physical Plant Director and Property Officer were positions named in the
original CAP and should have been charged to SSA at the lower rate provided in the
agreement. Additionally, as mentioned previously, the switchboard operator appears to
provide the same services as the “Switchboard Operator Supervisor.” Accordingly,
while not specifically named in the CAP, we see no reason a distinction in allocating
their costs should be made. Finally, the two office supply warehouse employees
provided services to all three MDRS programs and, as such, we believe should have
been included in the CAP and billed using the methodology specified in this agreement.

We believe SSA needs to determine whether the various methodologies MDRS used
during the audit period to allocate indirect personnel costs among its various programs
were appropriate. Additionally, when it revises the existing CAP, MDRS needs to allow
for all methodologies it intends to use and seek approval from the cognizant Federal
Agency, DoE. Finally, MDRS needs to implement controls to ensure it complies with its
approved CAP.

GENERAL SECURITY CONTROLS

SSA’s POMS requires that DDSs adequately safeguard claimant/program information
and facilities used by DDS personnel. 9 Although our limited review of MS-DDS’ general
security controls environment showed controls were generally effective, we identified
the following areas where we believe MS-DDS’ controls did not adequately protect
claimant data and office facilities.

•     Employees left case folders and medical records, which contained sensitive
      information, unattended on their desks as well as in holding areas. SSA policy
      states, “SSA requires that all claimant records and files be maintained in a locked
      drawer, cabinet or room when there is no authorized individual on location….”10



9
    POMS, DI 39566.001.A. and B.
10
     POMS, DI 39566.110 A.1.
Page 6 – Paul D. Barnes


•     Fire extinguishers had not been inspected since July 2005. SSA policy requires that
      fire extinguishers be professionally checked/recharged annually. 11

•     The door hinges to the computer room were visible from outside the room and were
      not pinned. In addition, the door leading into the computer room area was not
      locked at all times. SSA policy requires that hinges on a computer room door either
      face inward or be pinned to prevent the door’s removal from its frame. 12

CONCLUSION AND RECOMMENDATIONS

MS-DDS should strengthen its controls to ensure (1) payments made to medical
providers do not exceed the highest rate paid by Federal or other agencies in the State
for the same or similar types of service and (2) unallowable equipment use allowances
are not charged to the DDS program. In addition, MDRS needs to update its CAP and
implement controls to ensure it is followed. Furthermore, MS-DDS needs to strengthen
its physical security controls to provide greater assurance that claimants’ personal
information and the facilities used by DDS staff are adequately safeguarded.

Accordingly, we recommend that SSA instruct MS-DDS and/or MDRS to:

1. Provide justification for using CE payment rates that exceeded the maximum rates
   paid by Federal or other agencies in the State. In the event MS-DDS cannot
   provide SSA with adequate justification, it should refund the amounts paid in excess
   of the maximum allowable rates.

2. Refund $1,869 for unallowable equipment use allowances.

3. Update its CAP and submit it to DoE for approval.

4. Secure sensitive claimant information against unauthorized access at all times.

5. Ensure that fire extinguishers are professionally checked/recharged at least every
   12 months.

6. Either replace the hinges on the computer room doors with hinges that contain
   non-rising hinge pins or ensure that the doors leading into the computer room area
   remain locked at all times.

Additionally, we recommend that SSA:

7. Consider requiring MS-DDS to refund any indirect personnel costs billed above that
   permitted by the current CAP.


11
     POMS, DI 39566.010 B.4.h.
12
     POMS, DI 39566.010 B.2.n.
Page 7 – Paul D. Barnes


SSA COMMENTS AND OIG RESPONSE
SSA agreed with Recommendations 3, 4, 5 and 6. Although SSA agreed in principle
with Recommendations 1, 2 and 7, it does not plan to pursue any refunds. We believe
SSA’s planned actions adequately address our concerns. The full texts of SSA’s and
MS-DDS’ comments are included in Appendices D and E.




                                             Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Calculation of Mississippi Disability Determination Services’ Excessive
             Consultative Examination Costs

APPENDIX D – Social Security Administration Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
Act           Social Security Act
CAP           Cost Allocation Plan
CE            Consultative Examination
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
DoE           Department of Education
FFY           Federal Fiscal Year
MDRS          Mississippi Department of Rehabilitation Services
MS-DDS        Mississippi Disability Determination Services
OMB           Office of Management and Budget
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs

SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                            Appendix B

Background, Scope and Methodology
BACKGROUND
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), 1 provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 2 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, 3 provides benefits to financially needy individuals
who are aged, blind, or disabled. 4

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with the Code of Federal Regulations (C.F.R.). 5 In carrying out its
obligation, each DDS is responsible for determining claimants’ disabilities and ensuring
adequate evidence is obtained to support its determinations. 6 Each DDS is also
authorized by SSA to purchase consultative medical examinations, such as x-rays and
laboratory tests, to supplement evidence obtained from the claimants’ physicians or
other treating sources. 7

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
annual funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments system to
pay for program expenditures. Funds drawn must comply with Federal regulations and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 8 An advance or
reimbursement for costs under the program must comply with Office of Management

1
    Social Security Amendments of 1954, Pub. L. No. 83-761.
2
    The Act, §§ 201-234, 42 U.S.C. §§ 401-434.
3
    Social Security Amendments of 1972, Pub. L. No. 92-603.
4
    The Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
5
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
6
    Id.
7
    SSA, Program Operations Manual System, DI 39545.001.A.
8
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (amending 31 United
States Code §§ 6501 and 6503).


                                                   B-1
and Budget Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments. At the end of each fiscal quarter, each State agency submits to SSA a
Form SSA-4513, State Agency Report of Obligations for SSA Disability Programs, to
account for program disbursements, obligations and unliquidated obligations.

The Mississippi Disability Determination Services (MS-DDS) is a component of the
Mississippi Department of Rehabilitation Services (MDRS). MS-DDS’ Finance Director
prepares the Form SSA-4513, but it is signed by the MDRS’ Director of Financial
Management. MDRS periodically allocates departmental indirect costs to MS-DDS.

SCOPE
We reviewed the administrative costs MDRS reported for MS-DDS on Forms SSA-4513
for Federal Fiscal Years (FFY) 2004 and 2005 through the quarter ended
December 31, 2005.

           Table 1: MS-DDS Disbursements and Unliquidated Obligations
                              FFYs 2004 and 2005

                 REPORTING ITEM                   FFY 2004         FFY 2005
                                                 as of 12/31/05   as of 12/31/05



          Disbursements:
          Personnel                               $12,223,890      $12,272,837
          Medical                                   7,180,752        7,125,253
          Indirect Costs                            1,149,340          722,089
          All Other Non-Personnel                   3,179,615        2,550,645
          Total Disbursements                      23,733,597       22,670,824

          Unliquidated Obligations:
          Personnel                                         0                0
          Medical                                      43,861          330,057
          Indirect Costs                                    0                0
          All Other Non-Personnel                       3,401          113,288
          Total Unliquidated Obligations               47,262          443,345
          Total Obligations                       $23,780,859      $23,114,169

To achieve our objectives, we performed the following steps.

•   Reviewed applicable Federal regulations; pertinent parts of SSA’s Program
    Operations Manual System (POMS), DI 39501; DDS Fiscal and Administrative
    Management; and other instructions pertaining to administrative costs incurred by
    the DDS and requests for Federal funds covered by the Cash Management
    Improvement Act agreement.



                                           B-2
•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Interviewed MDRS, MS-DDS and SSA personnel.

•   Tested the reliability of the electronic disbursement files MS-DDS provided us for the
    audit period by comparing the disbursements—by cost category and in total—with
    amounts reported on the Form SSA-4513.

•   Examined documentation for statistically selected direct costs transactions
    (personnel, medical services, and all other non-personnel costs) MS-DDS reported
    for the period October 1, 2003 through December 31, 2005 to determine whether the
    costs claimed were allowable under Office of Management and Budget
    Circular A-87, Cost Principles for State, Local and Indian Tribal Governments, and
    appropriate, as defined by SSA’s POMS.

•   Examined the indirect costs MDRS allocated to its various programs for the quarter
    ended December 31, 2004.

•   Compared the amount of SSA funds the MS-DDS requested and received for
    program operations with the disbursements reported on the Form SSA-4513 for the
    audit period.

•   Conducted a physical inventory of (1) selected equipment items contained on
    MS-DDS’ inventory listing and (2) selected computer hardware items SSA provided
    to MS-DDS.

•   Conducted limited general control testing related to physical access security and
    security within MS-DDS.

We performed our audit from May through October 2006 at the MDRS’ State office
building in Madison, Mississippi. We conducted our audit in accordance with generally
accepted government auditing standards.

METHODOLOGY
Our sampling methodology encompassed three general areas of costs, as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other non-personnel costs. We
used computerized data provided by MS-DDS for FFYs 2004 and 2005 through the
quarter ended December 31, 2005 to statistically test disbursement transactions it
reported for the audit period.




                                           B-3
Personnel Costs
We reviewed appropriate personnel and payroll records for 50 randomly selected
non-medical personnel for one randomly selected pay period during FFY 2005. In
addition, we reviewed supporting documentation for payments made to all medical
consultants for one randomly selected pay period during FFY 2005.
Medical Costs
We sampled 100 medical cost items (50 items from each FFY) using a stratified random
sample. We distributed the sample items between medical evidence of record and
consultative examinations based on the proportional distribution of the total medical
costs for each year.
All Other Non-personnel Costs
We selected a stratified random sample of 100 items (50 items from each FFY) from all
other non-personnel costs. Before selecting the sample items, we sorted the
transactions into the following categories: (1) Occupancy, (2) Contracted, (3) Electronic
Data Processing Maintenance, (4) New Electronic Data Processing Equipment,
(5) Equipment, (6) Equipment Rental, (7) Communications, (8) Applicant Travel,
(9) DDS Travel, (10) Supplies, and (11) Miscellaneous. We then distributed the
50 sample items for each year between categories based on the proportional
distribution of the costs.




                                           B-4
                                                        Appendix C

   Calculation of Mississippi Disability
   Determination Services’ Excessive
   Consultative Examination Costs

                 Federal Fiscal Year 2004

                                            Difference
             Mississippi                     Between
  Current     Disability                   MS-DDS Fee         Amount in
 Procedural Determination                       and           Excess of
Terminology    Service            Highest    Highest   Number  Highest
   (CPT)      (MS-DDS)    MS-DDS Allowable Allowable     of   Allowable
   Code         Code       Fee      Rate       Rate    Exams     Rate

      93010       S02-1   $30.00    $15.13     $14.87       15    $223.05
      93016       S02-B   100.00     38.72      61.28         2     122.56
      93015       S02-C   172.97    166.98       5.99         2      11.98
      94720         S05   175.00     59.53     115.47       39    4,503.33
      92593         S20    85.00     42.96      42.04      119    5,002.76
      72100         X04    37.95     36.46       1.49    1,526    2,273.74
      73500         X05    31.05     26.41       4.64      138      640.32
      73500         X06    31.05     26.41       4.64      111      515.04
      73590         X13    28.75     28.27       0.48         9       4.32
      73590         X14    28.75     28.27       0.48       11        5.28
      72069         X32    39.00     30.50       8.50       44      374.00
      73550         X42    32.20     30.13       2.07         9      18.63
      76020         X50    34.50     31.84       2.66         2       5.32
      73565         X77    50.60     27.90      22.70       47    1,066.90
   73565-26       X77-1    20.68     18.60       2.08       48       99.84
                                                        Total   $14,867.07




                                   C-1
              Federal Fiscal Year 2005

                                         Difference
                                          Between
                                        MS-DDS Fee         Amount in
                                             and           Excess of
                               Highest    Highest   Number  Highest
CPT        MS-DDS      MS-DDS Allowable Allowable     of   Allowable
Code        Code        Fee      Rate       Rate    Exams     Rate

   93010       S02-1    $30.00    $15.13     $14.87         3     $44.61
   93016       S02-B    100.00     38.72      61.28         1      61.28
   94720         S05    175.00     59.53     115.47       21    2,424.87
   92593         S20     85.00     42.96      42.04      100    4,204.00
   72100         X04     37.95     36.46       1.49    1,291    1,923.59
   73500         X05     31.05     26.41       4.64      134      621.76
   73500         X06     31.05     26.41       4.64       91      422.24
   73590         X13     28.75     28.27       0.48       17        8.16
   73590         X14     28.75     28.27       0.48       10        4.80
   72069         X32     39.00     30.50       8.50       29      246.50
   73550         X41     32.20     30.13       2.07       10       20.70
   73550         X42     32.20     30.13       2.07         3       6.21
   76020         X50     34.50     31.84       2.66         1       2.66
   73565         X77     50.60     27.90      22.70       39      885.30
73565-26       X77-1     20.68     18.60       2.08       33       68.64
                                                      Total   $10,945.32




                                 C-2
                                   Appendix D

Social Security Administration Comments
                            SOCIAL SECURITY
                                                       Refer To: K. Killam 2-5727


MEMORANDUM

Date:       May 1, 2007

To:        Assistant Inspector General for Audit

From:      Regional Commissioner
           Atlanta

Subject: Administrative Costs Claimed by the Mississippi Disability
         Determination Services (DDS) A-08-06-16125

Thank you for the opportunity to comment on the validity of the facts presented in your
audit report on the MS DDS’ internal controls. We believe that the OIG Audit, regarding
the accounting and reporting of cost allocations was detailed and thorough.

Our response to the seven recommendations is as follows:

1. Recommendation: Instruct the Mississippi Disability Determination Service
   (MS-DDS) to provide justification for using Consultative Examination payment
   rates that exceeded the maximum rates paid by Federal or other agencies in
   the State. In the event the MS-DDS cannot provide the Social Security
   Administration (SSA) with adequate justification, it should refund the amounts
   paid in excess of the maximum allowable rates.

      We agree that in some instances the DDS has charged more than the highest
      allowable rate for Consultative Examinations (CEs). The audit states that the amount
      in excess of the highest allowable rate was $14,867.07 however; upon review, it has
      been determined that several of the charges were the result of improper coding. Had
      the proper codes been used in those instances, then the amount in excess of the
      highest allowable rate would have been $6,322.09.

      The MS DDS is located in an area where the availability of physicians and
      specialists who perform the requisite CEs is very limited.




                                            D-1
  Many of the charges in excess of the highest comparable rate were for x-ray fees.
  While some of MS DDS x-ray fees are slightly higher than the highest allowable rate,
  the current fees enabled the DDS to have x-rays performed by the same provider
  who performed the purchased medical examination.

  This arrangement provides several advantages for the SSA Disability Program.
  When the examination and the x-ray can be conducted at the same time and at the
  same facility then both the DDS and the claimant save valuable time. Additionally,
  the incidence of missed exams is lower.

  Based upon the current provider availability in the state, if the fees were lower there
  possibly would be a more limited number of providers and hospitals willing to
  conduct the exams, and thus the distance for the claimant to travel would increase
  and other DDS costs would rise, resulting in a net increase in cost for the disability
  program.

  SSA does not believe that it is in the best interest of the disability program for the
  MS DDS to pay less than their current rate for CEs. Therefore, we will not pursue a
  refund of amounts paid in excess of the current maximum allowable rate.

2. Recommendation: Instruct the MS-DDS to refund $1,869 for unallowable
   equipment use allowances.

  While we agree with the finding of the auditors that the MS DDS misapplied the
  OMB Circular, Attachment B, section 11h, we disagree that the MS DDS should
  refund $1,869 in unallowable equipment use allowance. The circular requires that
  use allowances be permitted only if the equipment exists and is in use. The CAP for
  the MS DDS states that the DDS must apply an equipment use allowance in lieu of a
  depreciation method. The DDS CAP allows depreciation of data processing
  equipment up to 12.5% while all other equipment is depreciated at 6.66%.
  Computers do not have a very long depreciable life and the DDS must follow OMB
  regulations regarding equipment use allowances. We believe that 12.5% is not a
  sufficient rate for computers and SSA recommends that the DDS work to develop a
  new CAP. In that CAP, the DDS should move from a user allowance to a
  depreciation method in accounting for computer equipment use.

  Since the DDS has a CAP in place and their interpretation of the cost allocation
  reference of the OMB Circular A-87 was applied in good faith, we will not pursue a
  refund of $1,869. However, we will work with the DDS to ensure that a new CAP is
  developed and put in place as soon as possible.




                                          D-2
3. Recommendation: Instruct the Mississippi Department of Rehabilitation
   Services (MDRS) to update its Cost Allocation Plan (CAP) and submit it to the
   Department of Education for approval.

   We concur with this recommendation. We will ensure that the DDS develops and
   updates their CAP.

4. Recommendation: Instruct the MS-DDS to secure sensitive claimant
   information against unauthorized access at all times.

   We concur with this recommendation. The MS DDS Security Officer has already
   taken action and issued a memorandum to all employees concerning the necessity
   of safeguarding claimant information at all times. No further action is required.

5. Recommendation: Instruct the MS-DDS to ensure that fire extinguishers are
   professionally checked/recharged at least every 12 months.

   We concur with this recommendation. The MS DDS has already taken steps to
   resolve this finding. No further action is required.

6. Recommendation: Instruct the MS-DDS to either replace the hinges on the
   computer room doors with hinges that contain non-rising hinge pins or ensure
   that the doors leading into the computer room area remain locked at all times.

   We concur with this recommendation. Security of claimant information is of great
   concern to SSA. We agree that the hinges on the computer room door should be
   replaced. We will work with MS DDS to get a cost estimate for the necessary
   modifications.

7. Recommendation: Consider requiring MS-DDS to refund any indirect
   personnel costs billed above that permitted by the current CAP.

   We concur in part with this recommendation. Previously, in response to
   recommendation number 3, we concurred with the need for the MS DDS to update
   their CAP and will work with them to that end. Following the approval of the new
   CAP, should there be any excess indirect personnel costs billed, we will require the
   DDS to refund such amounts, if any. Although not all forms of allocating personnel
   costs were reported in the current CAP, these allocations appear reasonable and
   have been reviewed and approved by the Rehabilitation Services Administration
   which is a division of the US Department of Education, the cognizant agency.




                                          D-3
Please contact me if I can be of further assistance. Staff questions should be referred
to Eleanor Barrineau at (404) 562-1417 or Karen Killam at
(404) 562-5727.



                                                 Paul D. Barnes

cc: Mr. H.S. McMillan
   Ms. Jo Ann Summers
   Ms. Connie Surber
   Ms. Eleanor Barrineau




                                           D-4
                        Appendix E


State Agency Comments
E-1
E-2
E-3
E-4
E-5
E-6
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Director, Birmingham and Atlanta Audit Offices, (205) 801-1650

   Jeff Pounds, Audit Manager, Birmingham Field Office, (205) 801-1606

Acknowledgments
In addition to those named above:

   Cliff McMillan, Senior Auditor

   Charles Lober, Information Technology Specialist

   Susan G. Evans, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-08-06-16125.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
